<html>
<title> - THE DEPARTMENT OF ENERGY'S EFFORTS IN THE FIELD OF QUANTUM INFORMATION SCIENCE</title>
<body><pre>[Senate Hearing 115-530]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 115-530

THE DEPARTMENT OF ENERGY'S EFFORTS IN THE FIELD OF QUANTUM INFORMATION 
                                SCIENCE

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 25, 2018
                              __________






              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











                       Printed for the use of the
               Committee on Energy and Natural Resources


        Available via the World Wide Web: http://www.govinfo.gov 
        
        
        
        
        
                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
32-266                     WASHINGTON : 2020 
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
  Brianne Miller, Senior Professional Staff Member and Energy Policy 
                                Advisor
             Dr. Benjamin Reinke, Professional Staff Member
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
           Scott McKee, Democratic Professional Staff Member 
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Duckworth, Hon. Tammy, a U.S. Senator from Illinois..............     2

                               WITNESSES

Dabbar, Hon. Paul M., Under Secretary for Science, U.S. 
  Department of Energy...........................................     4
Guha, Dr. Supratik, Professor, Institute for Molecular 
  Engineering, University of Chicago, and Director of the Center 
  for Nanoscale Materials and Senior Science Advisor, Argonne 
  National Laboratory............................................    13
Holmdahl, Todd, Corporate Vice President, Quantum, Microsoft 
  Corpo-
  ration.........................................................    18
Siddiqi, Dr. Irfan, Faculty Scientist, Lawrence Berkeley National 
  Laboratory, Professor, University of California, Berkeley, and 
  Director, Berkeley Quantum.....................................    33

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Carter, Emily A.:
    Letter for the Record........................................    89
Dabbar, Hon. Paul M.:
    Opening Statement............................................     4
    Written Testimony............................................     6
    Responses to Questions for the Record........................    71
Duckworth, Hon. Tammy:
    Opening Statement............................................     2
Guha, Dr. Supratik:
    Opening Statement............................................    13
    Written Testimony............................................    15
    Responses to Questions for the Record........................    74
Holmdahl, Todd:
    Opening Statement............................................    18
    Written Testimony............................................    20
    Responses to Questions for the Record........................    79
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Siddiqi, Dr. Irfan:
    Opening Statement............................................    33
    Written Testimony............................................    36
    Responses to Questions for the Record........................    84

 
THE DEPARTMENT OF ENERGY'S EFFORTS IN THE FIELD OF QUANTUM INFORMATION 
                                SCIENCE

                              ----------                              


                      TUESDAY, SEPTEMBER 25, 2018

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. Welcome to the Senate 
Committee on Energy and Natural Resources. We will come to 
order as we convene for a hearing on quantum information 
science (QIS).
    As I came into the hearing room the hallways were packed 
with reporters and I thought, yes, we are finally here.
    [Laughter.]
    We have such excitement and enthusiasm about quantum 
information science. We do have a full committee room, and I 
think that is good.
    I welcome each of you as experts in this area, an 
opportunity for us to learn more. We are here because our 
nation has never shied away from tackling the world's biggest 
scientific challenges. Whether mapping the human genome or 
landing on the moon, we have seen how committed research 
efforts can truly change the world.
    Today we face another outsized scientific challenge. As 
computing power nears the realization of Moore's law, newer, 
faster, and more efficient means of computing will be required. 
That is where quantum computing, and the broader field of 
quantum information science, comes in. Quantum promises to 
revolutionize the speed and the scale at which we process data 
which could enable discoveries and advances that border on 
science fiction.
    The potential reward from investments in quantum are 
tremendous, and we are hardly the only ones to recognize that. 
A number of other countries and the European Union (EU) are 
devoting significant sums to develop this technology, none more 
so than China which recently announced a $10 billion 
investment.
    But I think we know here in this country that we always 
want to stay ahead of the curve. To that end the Department of 
Energy (DOE) is exploring ways to leverage resources and form 
partnerships to solve these challenges and that is a reflection 
of how we chose our witnesses today, with the Under Secretary 
for Science joined by representatives from the labs, university 
and industry.
    We are very glad to have all of you here today, although I 
will note that it was another company, it was Intel, who caught 
my attention on this based on their decision to name a new 
superconducting test chip after a chain of lakes in Alaska. 
This is Tangle Lake, which is also a reference to the extreme 
cold temperatures and snarled state that quantum bits desire to 
function.
    The technology is complicated, so I am going to leave those 
details to you and ask you to help educate us, again, as our 
expert witnesses. But, I think, also recognizing opportunities 
that exist with quantum are also easy to understand, quantum 
science could allow for breakthroughs in energy, medicine, 
communications and almost every other facet of our lives. So 
great possibilities here.
    I am proud to be working with the House Science Committee 
and the Senate Commerce Committee on quantum legislation. I am 
glad to see strong interest in this subject, as evidenced by 
the Administration's summit on quantum which was held yesterday 
at the White House.
    We have a lot of work in front of us and, as that proceeds, 
I want to make clear that funding for quantum is not a 
replacement for the investments that we need to make in 
supercomputing and exascale computing. Instead, we should see 
quantum as a tool that will augment and improve our nation's 
computing capability and work in tandem with more traditional 
computing capabilities.
    Again, I look forward to hearing from our distinguished 
panel. I will turn to Senator Duckworth this morning for her 
opening comments. Thank you for being here this morning and 
filling in for Senator Cantwell.

              STATEMENT OF HON. TAMMY DUCKWORTH, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Duckworth. Thank you, Madam Chairwoman, and thank 
you for scheduling this important hearing to examine the 
Department of Energy's efforts in the field of quantum 
information science.
    The only thing I know about quantum information is I can 
spell it.
    [Laughter.]
    The Chairman. We are learning.
    Senator Duckworth. We are learning, we are learning.
    But it certainly is vital to, not just science, but our 
economic competitiveness on a global scale.
    Quantum information science is a wide-ranging area of 
research that is expected to lay the groundwork for the next 
generation of computing as well as an array of other innovative 
technologies. Quantum technologies can result in breakthroughs 
with applications in sensing, communications, computing and 
simulation. They also have potential to address some of the 
world's most challenging problems and the United States is 
poised to be a leader in this development.
    Researchers at private companies, universities and national 
labs across the country, but especially in my home State of 
Illinois, are leading in the development of quantum 
technologies. Although most states do not have any national 
labs, Illinois is blessed with two. Both Fermi and Argonne are 
global leaders in the area of quantum information science. For 
example, in Illinois we have the Chicago Quantum Exchange which 
is a collaboration between the University of Chicago, Argonne 
and Fermi for advancing academic, industrial and governmental 
efforts in the science and engineering of quantum information. 
These partnerships between the private sector, universities and 
national labs create efficiencies for research and they must be 
well funded to continue making progress in this field.
    I am pleased that the Department of Energy plans to invest 
just over $100 million in quantum-related research next year. 
And just yesterday, I am pleased to announce that DOE announced 
$218 million in funding in this field. DOE should continue and 
expand its quantum research program for both fundamental 
science and providing access to the necessary science 
infrastructure. Quantum information science research is 
primarily basic, fundamental scientific research at this stage, 
and there is a clear federal role in making these science 
investments. These investments will be pivotal in maintaining 
U.S. leadership for quantum technologies and ensuring that the 
United States' competitiveness while other countries like China 
are also investing billions in research. As we continue to 
invest more into research and infrastructure of quantum 
sciences, it is clear that there will be an increasing need for 
people to perform jobs in this growing industry. This is the 
future. The Department of Energy should work with other federal 
agencies and these existing regional collaborations to develop 
a program to ensure that there will be a qualified and trained 
workforce for future quantum development.
    I would like to end my remarks by extending a warm welcome 
to all of the witnesses and to give special thanks to Dr. Guha 
who is testifying today on behalf of Argonne National 
Laboratory. Dr. Guha is a Senior Science Advisor at Argonne 
National Laboratory and the Director of the Center for 
Nanoscale Materials there. He is also a Professor at the 
Institute for Molecular Engineering at the University of 
Chicago. Dr. Guha came to Argonne at the University of Chicago 
in 2015 after spending 20 years at IBM Research where he was 
Director of Physical Sciences. While there, he pioneered the 
Materials Research that led to IBM's high dielectric constant 
metal gate transistor, one of the most significant developments 
in silicon microelectronics technology. Dr. Guha has 
specialized in the discovery science of new materials for 
information processing (IP). I am personally thrilled he is 
with us today.
    So, once again, I thank the Chair for holding this very 
important hearing, and I look forward to the testimony of our 
witnesses.
    The Chairman. Thank you, Senator Duckworth.
    We will begin with our panel which will be led off this 
morning by the Honorable Paul Dabbar, who is the Under 
Secretary for Science for the Department of Energy. Welcome 
back to the Committee.
    He will be followed by Dr. Supratik Guha, who has just been 
introduced by Senator Duckworth, who is jointly associated with 
the University of Chicago and Argonne National Lab. Welcome.
    Mr. Todd Holmdahl is the Corporate Vice President, Quantum, 
with Microsoft.
    Rounding out the panel we have Dr. Irfan Siddiqi, who is 
the Director of Berkeley Quantum. This is a strategic 
partnership between Berkeley Lab and UC Berkeley.
    We welcome each of you to the Committee. We ask that you 
try to keep your comments to about five minutes. We will have 
an opportunity for questions and your responses following that.
    Under Secretary Dabbar, if you would lead us off.

STATEMENT OF HON. PAUL M. DABBAR, UNDER SECRETARY FOR SCIENCE, 
                   U.S. DEPARTMENT OF ENERGY

    Mr. Dabbar. Thank you, Chairman Murkowski and Acting 
Ranking Member Duckworth and members of the Committee, I'm 
pleased for this opportunity to discuss the emerging field of 
quantum information science to highlight the potential for our 
nation's continued economic competitiveness and national 
security.
    First, I would like to thank this Committee and the whole 
Chamber for the support on innovation in sciences. The amount 
of focus of resources that have been applied are at an all time 
high, and we very much appreciate the leadership of this 
Committee and the others on the investment and innovation for 
this country.
    QIS represents a new frontier in information technology. 
Unlike today's computers, which rely on transistors, quantum 
applications use elementary particles like photons or electrons 
to store and use data. Such applications are challenging but 
they also open new opportunities.
    They are needed because Moore's Law, which was predicted by 
Intel's co-founder, Gordon Moore, that the computing capacity 
would double on a regular basis is slowing down due to physical 
limitations. Transistors are now down to the size of three 
atoms. It's becoming increasingly difficult for us to go even 
further. That's where the Department comes in since we have a 
long history as a global leader in computing as well as in 
particle physics which are the two enabling technologies.
    This past June our summit supercomputer at Oak Ridge was 
named the fastest supercomputer in the world and the most 
powerful artificial intelligence machine in the world. Today, 
we're actively pursuing exascale. The promise of quantum 
computing is complementary to classical information systems 
while holding the potential to do some computations more 
successfully and more speedily than classical systems.
    There are three main types of QIS applications: Quantum 
Computing, Quantum Networking and Quantum Sensing. Let me give 
you one example of each. In Quantum Computing, utilizing the 
properties of individual photons or electrons to store 
information can dramatically increase calculations. If we hit a 
50-qubit computer, for quantum computers we will have the 
capabilities equal to the current capacity of our high-end, 
high-performance computers, and we are on track to potentially 
produce machines that are more than double that target which 
would lead to computers with 10 to the 15th more computing 
power than what we currently have--very large number.
    Quantum Networking would allow us to transmit quantum 
entangled data through the quantum internet, and Quantum 
Sensing technology will enable detection of physical properties 
such as magnetic fields at very small scales such as at the 
individual cellular level of a human's body. We might be able 
to map every individual cell in a human, leading to jumps in 
medicine that are vast such as individual cell, cancer cell, 
targeting.
    Yet, developing quantum information systems presents 
challenges of physics and physical sciences. The national labs 
are leaders in basic research in these areas. As you may 
remember, 40 percent of all the world's Nobel prizes in physics 
were awarded to researchers who did work in our national labs.
    To accelerate our efforts, we announced yesterday $218 
million in funding for 85 projects at our national labs and in 
universities at yesterday's White House event. Among those are 
the creation of two quantum test beds which will operate in 
similar ways to our national lab user facilities. As a part of 
that effort we will continue to work with our sister agencies, 
the DoD, NSF and NIST.
    We continue to achieve these goals can be done by creating 
cross-cutting technology centers and the DOE has done that, as 
was mentioned by the Chairman, in such past grand challenges as 
the Manhattan Project and the Human Genome Project.
    Similarly we have been reviewing setting up quantum centers 
and we believe that setting these up allow a diverse set of 
bidders, including national labs, universities and private 
industry consortiums, to allow for the best competition of 
ideas.
    The National Quantum Research Information Center set forth 
in the draft bill holds great promise. We previously pioneered 
this model of research of centers across our national lab 
complex. While it is important for us to sustain our research, 
in addition, at individual and small research efforts like we 
announced yesterday, establishing three to five national 
quantum centers would anchor the national program to ensure 
discoveries would rapidly translate from technological 
advances.
    Moore's Law is bringing us to the limit of conventional 
computing but the DOE's national labs specialize in 
breakthrough boundaries and opening possibilities so, with our 
partners, we intend to open new frontiers in quantum 
applications and build a stronger nation.
    [The prepared statement of Mr. Dabbar follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Secretary Dabbar.
    Dr. Guha, welcome to the Committee.

   STATEMENT OF DR. SUPRATIK GUHA, PROFESSOR, INSTITUTE FOR 
 MOLECULAR ENGINEERING, UNIVERSITY OF CHICAGO, AND DIRECTOR OF 
THE CENTER FOR NANOSCALE MATERIALS AND SENIOR SCIENCE ADVISOR, 
                  ARGONNE NATIONAL LABORATORY

    Dr. Guha. Chairwoman Murkowski, Ranking Member Duckworth 
and members of the Committee, thank you for the opportunity to 
appear before you today to discuss the status of quantum 
information sciences and the role and efforts of the U.S. 
Department of Energy national laboratories in this regard.
    I'm Supratik Guha, a professor at the Institute for 
Molecular Engineering at the University of Chicago and Director 
of Argonne National Laboratory's Center for Nanoscale Materials 
Facility supported by the DOE Office of Science.
    Quantum information sciences exploits the unique properties 
of quantum mechanics to rapidly explore information spaces in a 
connected manner, rather than the sequential manner of 
conventional information processing. Building machines and 
devices that exploit this property, we then expect enormous 
advantages in certain types of computing such as codebreaking, 
in the design of molecules for areas such as drug discovery and 
in the secure transmission of data.
    Advances also extend to the measurement, with unprecedented 
accuracy, of physical parameters important in areas such as 
geo-positioning, as well as the basic sciences, a field known 
as quantum sensing. The potential impacts are remarkably broad, 
from sensing within living cells to using highly precise atomic 
clocks to try to answer the fundamental questions, for 
instance. Are some of the physical constants we assume in 
science to be constant really constant?
    The time to significantly expand our efforts in quantum 
information is now, because this technology will offer critical 
differentiating advantages to the leader. And what is needed is 
an effort that is broad in scope, spanning science as well as 
engineering.
    This is where the DOE national laboratories come in. They 
have the size, the massive experimental capabilities and the 
multidisciplinary skills from computing systems to physics and 
material science under one roof as well as the professional 
staff and management skills to deliver on large, complicated 
projects. Working in close collaboration with industry and 
academia, which is essential, the national labs can be anchors 
for future research in quantum information sciences. The DOE 
labs have a proven track record. From the 1940s through the 
1960s, Argonne played a major role in developing nuclear 
reactor technology. More recently, the DOE national labs, 
working with computer companies and academic partners, anchored 
the development and scientific utilization of supercomputing.
    The science community is a strong supporter of the DOE 
laboratory system and is well connected historically through 
the laboratories' various user facilities such as the light 
sources, the Nano Science Research Centers and the computing 
facilities and the neutron sources.
    Quantum advances will require a multidisciplinary vision 
and a new workforce of quantum engineers who are intimately 
familiar with quantum mechanics. This philosophy is behind the 
newly-formed Chicago Quantum Exchange, a collaboration between 
Argonne, Fermi National Accelerator Laboratory and the 
University of Chicago involving over 60 scientists from these 
three institutions.
    As an example, the Chicago Quantum Exchange recently has 
begun research, funded by the DOE, on establishing a 30-mile 
optical fiber link between Argonne and Fermilabs as a testbed 
for studying quantum entanglement and teleportation for secure 
information transfer. This is not something a university could 
have done on its own and highlights the unique benefits to such 
national laboratory-university partnerships.
    Aiming to create a workforce, the Chicago Quantum Exchange 
has begun a program, funded by the National Science Foundation, 
to match students and their academic advisors across the 
country with industrial and national laboratory members, and 
this is with students graduating from universities all across 
the United States. The nearly 20 University of Chicago faculty 
attached to the Quantum Exchange are some of the world's 
leading experts in quantum science, and they administer one of 
the first Ph.D. programs in quantum engineering in the world.
    It is also almost certain that quantum information sciences 
will bring many applications that are as yet unknown, but which 
will significantly affect our lives. It is, therefore, 
important to have breadth in our activity going forward, in 
sharing information and data and drawing from the intimate 
connections between thought leaders in academia, industry and 
the national laboratories.
    Thank you for your time and attention. I will be happy to 
respond to any questions you might have.
    [The prepared statement of Dr. Guha follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Dr. Guha.
    Mr. Holmdahl, welcome.

STATEMENT OF TODD HOLMDAHL, CORPORATE VICE PRESIDENT, QUANTUM, 
                     MICROSOFT CORPORATION

    Mr. Holmdahl. Chairman Murkowski, Ranking Member Duckworth, 
members of the Committee, thank you for the opportunity to 
share Microsoft's perspectives on quantum computing.
    My name is Todd Holmdahl. I run the Quantum Computing Group 
at Microsoft. We've been investing in quantum computing for 
over the last 15 years. We've amassed a team of computer 
scientists, scientists and engineers in order to produce a 
scalable, commercial, quantum computer.
    Now, quantum information science is a very big topic. We 
are specifically focused on building a scalable, commercial, 
quantum computer built on a high quality, high fidelity qubit. 
The benefits of quantum computing are many. You can see 
benefits in terms of energy, food production. You can see it 
also in terms of climate change, different materials 
optimization.
    One area where we believe that quantum computing can solve 
a big problem is in terms of producing artificial fertilizers. 
Today, three percent of the natural gas produced in the world 
is used to produce artificial fertilizers. The process we use 
is 100 years old. It was started in the 1900s. It's at a very 
high temperature and a very high pressure. But we know that 
there are microbes in the world that can do the exact same 
thing at a much lower temperature and a much lower pressure, 
and we believe that a quantum computer can figure out the 
secrets of what those microbes are doing so that we can produce 
the same fertilizer at a much lower energy and a much lower 
cost.
    Now everything that's hard needs investing in, in order to 
realize its full potential. We recommend that the Committee 
look at investing in quantum computing in three different ways.
    First, invest in the quantum workforce. We have very few 
people who are ready to produce quantum computers. You need 
engineers. You need scientists. You need computer programmers 
in order to do that. We recommend that industry, academia and 
universities develop curriculum that can be posted online or be 
taught at universities. We recommend on-the-job training for 
engineers that are already in the field. Many of these 
engineers have the foundation, but they don't have all the 
skills necessary to join the quantum workforce and on-the-job 
training would help that. And the third thing we recommend, is 
looking at a national program for quantum computing. I've done 
many products at Microsoft. This is by far the most interesting 
science and technology out there.
    The second recommendation we have for the Committee to look 
at is in basic research around the fundamentals of quantum 
computing, particularly in looking at a scalable qubit. The 
qubit is the fundamental computational element of a quantum 
computer. It's very fragile. Most of these qubits are operated 
at 20 millikelvin at almost Absolute Zero, and we need to 
develop the materials and the fabrication and the manufacturing 
processes in order to make these things stable so that we can 
have these big, large-scale quantum computers.
    The third thing we recommend is the development of quantum 
software algorithms. The algorithms that you run on a quantum 
computer are completely different than the algorithms that you 
run on a classical computer. But even though we don't have 
quantum computers today, we can learn about these algorithms if 
we do a couple of things. One, we recommend that we take large, 
classical computers and simulate a quantum computer on these 
large, classical computers with simulation, and with a quantum 
development kit we can start working on these algorithms today 
so that when we have the quantum computers, the algorithms will 
be developed and built to be able to process and solve these 
big problems. The second thing we recommend is partnerships 
between academia and industry and the government. We, today, 
are in a partnership with Pacific Northwest National Laboratory 
and we're working specifically on solving some of their big, 
tough, chemistry problems. Quantum computers look like they 
will help solve these big problems and we're making incredible 
progress so that when we get the actual quantum computer, we 
can test it out right away.
    An amazing space to be working in, the most exciting thing 
I've done in my career and, like anything else though, you need 
to invest in it in order to realize its potential.
    Thank you.
    [The prepared statement of Mr. Holmdahl follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you, Mr. Holmdahl.
    Dr. Siddiqi.

  STATEMENT OF DR. IRFAN SIDDIQI, FACULTY SCIENTIST, LAWRENCE 
    BERKELEY NATIONAL LABORATORY, PROFESSOR, UNIVERSITY OF 
      CALIFORNIA, BERKELEY, AND DIRECTOR, BERKELEY QUANTUM

    Dr. Siddiqi. Chairman Murkowski, Senator Duckworth, all the 
honorable Senators and members of the Committee that are here, 
I would like to thank you for giving me the chance to tell you 
about why I think quantum is so exciting this morning.
    I will start off by saying I started working in this domain 
before there were superconducting qubits. So for more than 20 
years I've been thinking about quantum mechanics, and my role 
is really both as a physics professor at UC Berkeley and also 
someone that works at Lawrence Berkeley Lab.
    I want to start off by asking, why quantum? Why now? You 
know, I just taught 200 quantum mechanics students over the 
last three weeks, the mathematics of this theory which is more 
than 100 years old. Right? So why now? Why are we, sort of, now 
figuring out what to do with this?
    And, moreover, what's rather striking is that quantum 
theory is the backbone of most modern technology, whether it's 
lasers or computers or MRI scanners or CT scanners. But what's 
amazing is we still have not really tapped into quantum yet. 
And the reason for that is we spent 100 years trying to figure 
out if a cat can be asleep and awake at the same time. Really, 
right? And I think the verdict is out. We believe that cats can 
do this.
    [Laughter.]
    Right? And that's an amazing philosophical statement 
because if cats can do this then bits can do this. Right?
    And the point is that systems that we observe, in fact, 
have an inherent complexity which goes well beyond what we 
observe. To the point that if you have even a modest array of 
quantum bits, the number of parameters you would need to 
explain or describe that array is more than the particles in 
the universe. That's true.
    So the idea is if I really have a small chunk of quantum 
matter, quantum bits, a computer or simulator, then in fact, if 
I can harness it, it's extremely powerful. Right?
    And we can list some of the applications that my honorable 
colleagues were mentioning, but I would say the best of quantum 
is still yet to come. Right? Because we have not really even 
thought about what are the full implications, in fact, of 
having this technology.
    So really the task at hand for all of us is to manage 
intellectual capital in an efficient way, without knowing 
actually the full potential of that capital just yet. But with 
having that little glimmer of hope that says, for sure this 
will be transformative because now we know how the world really 
works.
    Staying to the subject of today's discussion, the role of 
the Department of Energy in such an endeavor. We are still in 
the discovery phase, and the Department of Energy has a rather 
critical, crucial role to play in discovery-driven science.
    In particular, progress in quantum information science 
hinges upon critical advancements in materials that sustain 
quantum behavior, engineering advances to control quantum 
machines and new ideas in computer science to find the most 
impactful implications. DOE labs have core expertise in exactly 
these three areas. In fact, they have a long history of 
shepherding discovery-driven research that is ultimately needed 
to bring quantum in every home. Alright? That's something we 
still need to think about and how to implement.
    In particular, if we are really serious about training the 
next generation workforce, and I see them every day, then we 
need to have projects for them to engage in. Right? Where will 
all our Ph.D.s go when they finish working on this subject?
    In fact, academia and industry, to me, represent two 
particular areas but there's a big area in the middle where, in 
fact, DOE labs can shepherd all these nascent scientists. And, 
in fact, it's a great place to hone your skills and become a 
professional scientist at a DOE lab.
    Of course, as was mentioned by other Committee members, the 
DOE labs do not exist in a vacuum. Right? They are a critical 
part of the quantum ecosystem that has partners in both 
academia and industry. What I would like to say is that each of 
these entities has a unique role to play in this process, and 
greatest progress is made when competitive overlaps are turned 
into synergistic partnerships.
    National labs can naturally extend the reach of the 
university researcher while identifying the most promising 
technologies for commercialization. The DOE brings continuity 
and stability to the picture. Progress in quantum technologies 
extends well beyond the life of one graduate student, and 
extends beyond the life, in fact, of a very near-term 
industrial endeavor.
    As for the structures of these centers, perhaps the hybrid 
approach is best, where we have both vertical integration and 
horizontal integration. Vertical integration on a particular 
technology brings everyone in the same room so we all speak the 
same language. There's nothing that's lost in translation 
between engineers and scientists and physicists and computer 
scientists. We also identify those gaps where we need to fill 
and really make progress. Horizontal integration, amongst 
common topics, has its natural benefits.
    Moreover, I feel that these centers could be endowed with 
the ability to have deeper partnerships with industry which go 
beyond simply using nascent technologies. We are still trying 
to identify the technologies that are most important for us. 
They could have the ability to grant fellowships to students 
and postdocs to keep them in the field and to sponsor community 
building activities, both between workers in this field and 
also to sponsor that we are all engaged with.
    At Berkeley we have started Berkeley Quantum, a partnership 
between the lab and the university, and we are now endeavoring 
with the help of the Department of Energy to seed, if you like, 
the analog of a light source or a particle accelerator for 
quantum information technology, specifically superconducting 
qubits, so we can look at all the fundamental questions as a 
community and move forward from there.
    I thank you again for giving me the opportunity to share 
these remarks, and I'm happy to answer any questions that you 
may have.
    [The prepared statement of Dr. Siddiqi follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Dr. Siddiqi, thank you. I have to admit, I am 
still thinking about the cat.
    [Laughter.]
    So this is all about education and we certainly are 
benefited by your comments this morning, and really, your 
leadership in an area that is quite exciting. I think you put 
it into context quite well at the end. This is not something 
new and yet it is breathtakingly new in terms of its scope and 
its possibilities.
    Let me ask, because I think almost all of you have 
mentioned the necessity, as we move forward with these 
extraordinary opportunities, that we have the workforce and how 
we build that, how we develop the engineers, how we are able to 
partner, and I appreciated the mentoring program at Chicago 
Quantum Exchange Mentoring Program. But let me ask the 
question, in terms of our level of preparedness. I appreciate 
what was announced yesterday at DOE with $218 million in the 
research awards. I think that is significant. But when we think 
about what is happening around the world, I mentioned and it 
has been mentioned, the incredible investment that China has 
put forth--$10 billion. The EU has a quantum manifesto to move 
forward with a $1.1 billion flagship initiative. The UK has 
invested $440 million in a national quantum technologies 
program. There is Australia. There are other nations, the 
Netherlands.
    As we compete for these individuals that will help us 
advance, are we growing our own? Are right-focused individuals 
being wooed away by other nations that are, perhaps, investing 
more in this initiative? Help me out in understanding, kind of, 
where we are in competing for the best and the brightest, and 
how we can do more to ensure that everything lines up in terms 
of our opportunities. And I throw that out to the whole panel.
    Mr. Holmdahl, if you want to start?
    Mr. Holmdahl. Yeah, thank you, Senator Murkowski.
    Yeah, we've been developing a team, again, for a number of 
years and we're all over the world right now. We have labs in 
the Netherlands. We have a lab in Copenhagen. We also have a 
lab in Sydney, Australia. We happen to have labs in Purdue and 
Santa Barbara as well and then, of course, in Redmond.
    There was no way that we were going to be able to get 
enough physicists to come to Redmond, so we had to go 
throughout the world in order to staff our program.
    I would say, in my humble opinion, that the rest of the 
world seems to be a little bit ahead of us in terms of 
generating the next level of workforce. A lot of kids in 
physics and a lot of kids in engineering there.
    What we're able to do as a multinational company, at 
Microsoft, we're able to attract these resources and have them 
work on the programs that we've been working on. I would say we 
do, and I will try to outline it. We do need to continue to 
work on this quantum workforce. We don't have enough people 
coming from our universities yet and there are not a lot of 
great schools, again, in my opinion, that are pumping out the 
type of people that we're going to need for this quantum 
economy. Because it's going to be big, and you're going to need 
people to build the machines. You're going to need people to 
fabricate the machines. You're going to need people to engineer 
the machines, people to program the machines, and it's a whole 
list of different opportunities out there.
    And the more that we can get the universities built up, the 
more that we can go down into the high schools and develop 
programs, the more that we can do on-the-job training, the 
better opportunity we'll have to do it in the United States.
    The Chairman. Dr. Siddiqi?
    Dr. Siddiqi. Let me address the question in two parts. The 
first one is about our colleagues, right, in other countries 
and their investment in this particular subject. I think the 
good news for us is that I still get hundreds of applications 
for graduate students and postdocs that want to work with us. 
So we must be doing something right.
    In particular, we focus in our academic system on creative 
ideas and developing that talent. So we are raising the plants 
properly. The question is, what happens when they want to leave 
and get a job, right? Is there an opportunity there? And that 
was what I was alluding to in my remarks.
    What I have seen amongst graduate students is that, first 
of all, they're much smarter than I am and have ever been. 
They're the real reason we do any successful work in the lab. 
That means that we must treat them really as equals, and be 
honest with them and say, what are the right career choices? 
Where can you go, you know, with that talent? And I must say, 
before quantum really took off in this particular phase, I 
would have many different suggestions for them, perhaps in 
biotech or someplace else, because physics is a way of 
thinking. There are many things you can do with that degree.
    But I think it's very exciting to now have this endeavor 
take off. I think the critical part will be to not only train 
these folks, but also give them a way, honestly, that they can 
actually contribute positively to the ecosystem. And they are 
very smart people. They know where to go and how to work with 
their careers. In fact, they are at some level a commodity, but 
at some level human beings. So it's critical to make sure that 
there's honesty in the endeavor and there are things that they 
can be productive in as they go forward.
    The Chairman. I appreciate that.
    Dr. Guha and then we will go to Under Secretary Dabbar.
    Dr. Guha. Just a couple of quick comments.
    First of all, yes, I think we are noticing over the past 
some years that there's increased recruitment of bright 
students who are being given a lot of facilities and resources 
and being hired in other countries. But I think that is fine. I 
mean, that is the way, you know, the research world is 
progressing, as long as we are also able to recruit them from 
outside and back into here, I think it's fair game.
    In terms of the workforce, there is a need for a quantum 
trained workforce, essentially engineers who know how to do 
quantum mechanics. And we need to be smart in the way we do 
this. Today, for instance, most of the people involved in 
quantum information sciences come with physics backgrounds, 
chemistry backgrounds, and the material science community is 
just getting into it, the computer science community is just 
getting into it. But this now also needs to include the 
electrical engineers, the mechanical engineers, the packaging 
research people. So that whole ecosystem needs to be pushed 
out. That is not happening right now and we need to consciously 
work toward that.
    And finally, I will say that the, you know, the coupling 
between the educational establishment and the national 
laboratory system and industry, in my experience, is probably 
the strongest in the United States still today. And the U.S. is 
still in a leadership position, particularly in quantum 
information sciences.
    So we need to simply build on these. A lot of the other 
countries are essentially trying to, you know, grow from a 
position that's below, in terms of the sophistication. So, I 
think, if we do this smartly with our investments, I think we 
can continue to be ahead.
    The Chairman. Thank you.
    Under Secretary Dabbar, I am well over my time, but since 
everyone has brought this up I will certainly allow DOE to 
weigh in here.
    Mr. Dabbar. Thank you, Chairman.
    So, I think, just to state a few facts. The United States 
is the leader in particle physics in the world. As I mentioned, 
40 percent of all the Nobel Prizes in the world in physics are 
from people who were just in our national labs, so not even 
counting people who have not. People still want to come to this 
country and people are very excited about this topic. So I'm 
very--every day when I sit and talk with my labs and talk about 
where we are in technology versus others, I think we're in a 
very positive place. I can tell you that there are people 
around the world who would rather know what's going on at 
Argonne and at Berkeley than what they're doing themselves. I 
can say that with a high degree of confidence. So I think we 
are in an excellent place for the beginning of a long journey.
    When it comes to workforce, I can say that having toured a 
lot of the major universities--MIT, Caltech and Stanford, and 
Chicago--over the course of this last year, there's a 
tremendous rush of interest of students.
    And so the point is, is how do we build upon some of the 
points that was just discussed which is, how do we provide 
support for research, and how do we provide connections with 
the private sector? I am very positive about that 
interconnection. Yesterday was a good additional step forward. 
The dynamic interaction between universities, the national labs 
and the private sector in this is unparalleled in this country.
    So what can we do more? We could do more by, I think, some 
of the things that are being proposed by the bill, in part, led 
by the National Science Foundation where they're specifically 
looking at rolling out some workforce development. So that's 
part of the bill, and we very much support that.
    And then, as our role as part of this is continuing to fund 
the research. Actually, we go hire PIs and at the end of the 
day they go higher in number of students to support them. So 
there is seed money, to use a venture capital term, an effect 
that we cause for the rest of the sector.
    The Chairman. Thank you.
    Senator Duckworth.
    Senator Duckworth. Thank you, Madam Chair.
    I would like to, sort of, dig a little bit into what Dr. 
Siddiqi had mentioned. But I am going to address a question at 
Under Secretary Dabbar.
    You know, when we talk about this competition for this 
talent, and Dr. Siddiqi talked about where does this talent go 
once they are trained. I understand that the private sector, 
who will lead the way in commercialization for the discoveries 
made at our laboratories, face bureaucratic road blocks to 
entering public-private partnerships with our labs. My question 
really is, how do we grow those public-private partnerships? 
How do we help industry and entrepreneurs to get into this and 
be able to work with our national laboratories? What steps are 
you taking to simplify and expedite the process of entering 
into these types of partnerships between the national labs and 
private sector and what are you doing to really promote 
industry, whether it is a Microsoft or even a venture, 
something, two physics students are graduating, how do we grow 
this? Because as Dr. Siddiqi rightly states, they have to go 
somewhere, and I would rather they go to U.S. companies that 
are working directly with our labs in a very symbiotic way.
    Mr. Dabbar. Thank you, Senator. So I think there's two 
parts to answer your question.
    First of all, is how do we actually bring additional 
private sector involvement in with the work at our labs? That's 
not just this area, I could actually apply it to pretty much 
any of the research areas but, in particular in this area, a 
lot of people in this industry have not worked with national 
labs on a commercial level. We have more interaction with 
biotech and high-performance computing.
    And so, I think yesterday was a good first step of reaching 
out to the private sector and explaining our capabilities and 
that the private sector uses our national labs, as you know, 
labs in your state, a tremendous amount of private interaction. 
And for them to realize what we're there--and to figure out how 
we can make the connections of doing work to support them and 
also to figure out which specific dollars that you budget for 
us to go spend will make the biggest impact.
    So that's the Pasteur's quadrant to a user-inspired 
research philosophy that we're very much a part of and very 
much pushing. As a part of that, doing specific events to 
connect more with people. So we just did one on battery 
research out at Stanford this last week.
    When it comes to specific administrative aspects that you 
effectively touched on, I completely agree with you. The 
biggest challenge with the DOE lab complex is that we, as a 
principal, have all sorts of legal requirements and in order to 
step through, and reviews, which many times in a large entity 
is slow and it's hard for private industry to work with. I 
agree with you. It's something we've been attacking on a broad 
basis, including in this sector, and we're actually 
implementing a number of specific areas which make it easier.
    I'll comment on one which was asked previously here which 
was delegating authority for smaller agreements, below about $1 
million to the national labs with proper oversight in terms of 
auditing. But we're going to be making it easier, especially 
for involvement with anyone in the private sector, in any 
sector, in order for the labs to take the lead without having 
all the different bureaucracy that comes from Forrestal. We 
have analyzed that 50 percent of all the commercialization 
discussions with the private sector will be covered by this 
delegation of authority and should accelerate it significantly.
    Senator Duckworth. Wonderful. Thank you.
    I do see that this workforce development and really 
exploiting this field is a three-legged stool, right? You have 
the national labs, you have private industry, and then the 
third is, of course, our universities.
    Dr. Guha, welcome, again and thank you for testifying 
today. My question to you is going to deal with that last leg 
of the stool. And as you cite in your testimony, university 
researchers, like those at University of Chicago and University 
of Illinois, benefit from the national laboratory's 
infrastructure. You are also eligible for funding from DOE's 
Office of Science which allocates grants directly to university 
researchers in a variety of areas of quantum research for the 
universities. Can you discuss how university-based quantum 
research complements the work performed at the national 
laboratories and how these three legs come together? Because I 
do think that you need all three in order to continue to grow 
this workforce, grow the field.
    Dr. Guha. So there are several ways in which there is 
synergy between the universities and the national labs.
    First, as we've talked about the workforce development 
piece, a lot of these students end up getting trained in the 
national labs. For instance, just at Argonne there's about 
1,000 students and postdoctoral scientists who come by every 
year. And the number, I would say, is typical for the other DOE 
national labs as well. I just happen to know the numbers for 
Argonne.
    A lot of the academia and researchers use the user 
facilities, which is a jewel for the national lab systems, the 
light sources, the nanoscience research centers, neutron 
sources, the computing facilities. Just as an example again, 
the advanced photon source has about 6,000 users annually, most 
of them from, you know, university researchers across the 
world.
    The nanoscience research centers, there are five across the 
nation, on average have about 500 users, often 500-600 users, 
something like that per nanoscience center. So those are--so 
that type of engagement is a second way of engagement.
    And the third is, you know, we--the universities and the 
national labs together, when they work together along with 
industry, there's a diversity of thought that's required. As I 
mentioned, I believe we don't really know a lot of the uses of 
quantum information right now that will be useful to us in the 
years going forward, and this diversity of thought, this 
sharing of information, looking at it from different angles, is 
very, very important. I think that's a third area where the 
university, lab and industry interaction can happen.
    So it is very important going forward for research, not 
just in quantum information, but other areas such as artificial 
intelligence, for instance, needs to be purpose-driven. You set 
an agenda, then you put the team together, you know, be it 
universities, industry, academia and have it across different 
disciplines, multidisciplinary, computer sciences to 
engineering to science, and that's where this type of 
interaction really shines.
    Thanks.
    Senator Duckworth. Thank you. I am over my time, Madam 
Chair.
    The Chairman. Thank you, Senator Duckworth.
    Senator Cassidy.
    Senator Cassidy. Gentlemen, it is with trepidation that I 
ask a technical question, but nonetheless, I feel as if I must. 
As I gather from reading about qubits, they are inherently 
unstable and only at a certain temperature, et cetera, will you 
be able to have that. What if somebody pulls the plug out of 
the machine? I gather that in our current system the data is 
stored and you put the plug back in.
    Now, of course, I am speaking metaphorically, I am not 
speaking literally. But what if there is a disruption in how 
the data is being processed/stored, and how do you do a quality 
review to make sure disruption did not occur since the 
complexity and speed, et cetera, et cetera, et cetera.
    Whomever would wish to speak to that, please do.
    Dr. Siddiqi. Thank you, Senator Cassidy, for the question.
    So quantum mechanics has some very interesting features, 
right? To directly answer the question, how do we ensure that 
the machine has not lost functionality, has not drifted or has 
some other difficulty along the way?
    Senator Cassidy. Even for a nanosecond.
    Dr. Siddiqi. Even for a nanosecond we can run calibration 
sequences and they're part and parcel of making sure that the 
machine is functioning at its optimal performance.
    There are very specific tests in quantum mechanics. Some 
that we know now, others that we are developing within the 
domain of what's called verification and validation. There's a 
whole field of quantum verification and validation where you 
run this particular set of algorithms to make sure that your 
machine, for example, has not----
    Senator Cassidy. Ensuring you know the results of those 
algorithms would be beforehand and if the result comes out as 
you anticipate then----
    Dr. Siddiqi. Correct. And, in fact, they're on very solid 
footing because they are predicted by quantum mechanics itself.
    Senator Cassidy. So then let me ask you, how do you store 
the data? Because if there is a problem then everything you 
have worked on prior to that point is ``poof.''
    Dr. Siddiqi. Right. I think an important point to also 
bring up here is how quantum technologies complement classical 
technologies, right? In particular, this combinatorial space 
that you can access with quantum is really the power of quantum 
but things like storing numbers, adding numbers, minimizing 
things are perfectly well done on classical machines. So, in 
fact, most of the near-term applications really use a hybrid 
model where the quantum is used only for the little quantum 
step and all the other steps are classical. In fact, the new 
gains to all the benefits of what you're seeing in classical 
technologies and----
    Senator Cassidy. So then, let me ask, seeing how all this 
is, kind of, a great unknown as to how we are going to pull 
this off, will those who develop it have a proprietary--if 
Microsoft is the one that answers this question, would 
Microsoft then have the ability to restrict other people's 
access to the technology without a license fee, et cetera, et 
cetera, et cetera?
    Mr. Holmdahl. Well, what Dr. Siddiqi was saying is 
absolutely true, that in today's world most of the algorithms 
that we're looking at are a combination of classical and 
quantum and they would sit in some sort of data center so you 
could access that information through a data center.
    We are actively building a--what we're calling a scalable, 
stable, quantum computer built on a qubit that's highly stable 
and highly scalable. We are doing a lot of IP that, it will--
we're writing patents around it and it will ultimately belong 
to Microsoft. These algorithms will ultimately run in our data 
centers so customers will have access to it through our data 
centers.
    But it is something that we're putting a lot of Microsoft 
people on to develop something that we can--believe that will 
solve a lot of problems both, you know, commercial and non-
commercial problems.
    Senator Cassidy. Yes, sir.
    Mr. Dabbar. Senator, so the way I would separate this is 
that there's still basic research that will be open access. 
That's a lot of what the universities and national labs do that 
will be applicable to anyone who is trying to commercialize a 
particular product.
    And then, obviously, there is a wide array, growing 
exponentially it seems like, in terms of private industry, 
around all the different three major applications. They will 
develop their technologies and each one will have their 
particular way of attacking, computing and sensing, and so on, 
that will be dynamic. I think it's a good thing for the 
country.
    I would make a comment around hybrid computing. Besides 
being in basic research, the Department of Energy is a major 
consumer of high-performance computers, right? We build Summit, 
we build exascale, and they have been--we've actually pioneered 
hybrid systems. The GPU system, which is a hybrid, which is 
what the current high-end performer systems are which is 
classical, CMOS chips plus graphics processors to pick out 
which areas we pioneered and is part of our computers.
    We expect that, I think it was just said, that future 
computers, instead of having graphics processor units plus 
traditional CMOS might have attached quantum computers with a 
traditional classical computing system that will transfer data 
back and forth, memories and saving data and optimizing which 
should be calculated into which part of the computer.
    Senator Cassidy. Very good.
    Dr. Guha.
    Dr. Guha. I'd like to make a quick point that quantum 
information, you know, this is not the x+1 development of an 
existing form of computing that we know about very well like 
classical computing. This is a case where we're not so sure 
about the hardware, the software, the algorithms or the use 
cases.
    So there needs to be, in my view, a large component of open 
basic research. There is a time for black box research, and 
there's a time when a lot needs to be open----
    Senator Cassidy. I totally accept that, but I think 
Microsoft is more interested in black box----
    Dr. Guha. There needs to be a balance somewhere.
    Senator Cassidy. I didn't mean to throw----
    Mr. Holmdahl. No, let me answer that.
    We do--we have--we work with a lot of universities and we 
have a tiered program where we do basic research with the 
universities, and then also--which they own that IP and we have 
access to it. And then we also do some specific research, which 
you call black box, that's specifically dedicated for the 
product or the solution that we think, as Dr. Guha was saying, 
that we think is going to enable quantum computing. So we're 
doing actually both of those.
    Senator Cassidy. Yes.
    Yes, sir.
    I am over, am I allowed?
    The Chairman. Go ahead, Dr. Siddiqi.
    Dr. Siddiqi. Just a very small comment to, sort of, link 
all of these different ideas together. There will be a time 
where quantum computers outperform classical ones. So how do 
you know that the answer from the quantum one is reliable? In 
precompetitive research, at the moment there's tremendous value 
in performing the same computation on a quantum machine and a 
classical machine so we can verify that the quantum one is 
working the way we think it is. And we're very much, deeply in 
this phase at the moment.
    I think there is quite a period of time where we can, sort 
of, learn about these machines, vet them, so on and so forth 
and then, of course, there will be different roads by different 
consumers of this product whether it's in the civilian or 
military disciplines and so on and so forth.
    Senator Cassidy. Thank you.
    The Chairman. Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman, and thank all 
of you for being here today.
    I wanted to speak about rare earth elements, or rare earth 
minerals, which I am sure are being used and needs to be used 
as far as in this type of technology for quantum computing.
    WVU, West Virginia University, and then also the Department 
of Energy's National Energy Lab you have in Morgantown, have 
really been on the forefront of looking at how we can be able 
to develop our own supply which right now I understand we do no 
mining at all. We depend on outside sources, mostly China for 
this, for what assets we need.
    I had a bill last year, Senate bill 1563, which put $20 
million into research and extending that because we know there 
is enough for mine drainage, acid mine drainage, that has 
enough of these rare earth elements that could carry us well 
into the future.
    Do you all agree that we are in jeopardy of not having our 
own supply and could be held hostage? I think, Mr. Dabbar, the 
Department of Energy is where this lies right now. Do you all 
look into this? Are you exploring this? Has it been brought to 
your attention?
    Mr. Dabbar. Senator, yes, I mean, of course, critical 
materials is an important part of DOE. We obviously have a 
focus on that at a number of our labs, including the one in 
your state. And----
    Senator Manchin. Were you aware of what they have done in, 
basically, research right now in conjunction with WVU on 
showing that they can recover these rare earth elements, rare 
earth minerals?
    Mr. Dabbar. Yes, in terms--yes, Senator, in terms of 
different recovery, yes, absolutely. And to link it back to, I 
think, the sort of research that might be helpful here in terms 
of materials research. Clearly a lot of materials are quantum 
systems. That's a little bit of materials and mechanical 
engineering. And at the end of the day the sort of research 
that we could do on the material side, on quantum systems, with 
these, sort of, with quantum systems could make critical 
materials. We could identify how to utilize them better and 
possibly reduce our risks.
    Senator Manchin. Well, not just this, not just what we are 
talking about just for quantum computing. Do you believe it is 
a risk for the United States of America to be held in jeopardy 
from not having our own supply and we are relying on outside 
sources in other countries?
    Anybody want to comment on that?
    Mr. Holmdahl. Yeah, I will. I do think it's a risk. You 
know, right now----
    Senator Manchin. I don't hear anybody raising it----
    Mr. Holmdahl. No, it is a risk and, you know, what we're 
actually doing, and I can't comment on whether it's rare earth 
materials or indium or antimony or arsenic, but we are actually 
doing an extensive look at our supply chain right now and 
looking at what it takes to build a quantum computer from the 
qubits to the cryogenic layer that controls the qubits until 
the helium that you need in order to keep everything cold. So 
that's an exercise that's just started with us, but we realize 
the importance of the supply chain and we are diligently 
working through that and trying to figure out where all these 
things come----
    Senator Manchin. Let me follow up with my second question 
here and I will go right to you on this second question. I 
think it is your sweet spot.
    The Federal Government has been conducting quantum 
information science research and development since the mid-
1990s. We have been at it for a while. However, it has not 
explicitly made advancements in quantum information science a 
priority. The overall annual federal budget is spread across 
many departments and it is estimated to be $200-250 million.
    Now, the South China Morning Post has reported that China 
will invest approximately $10 billion, $10 billion, in a 
national laboratory focused on QIS that is expected to open in 
2020, and technology in the facility would be of immediate use 
to the armed forces. It has also been reported that China has 
created a new form of quantum radar capable of defeating the 
electromagnetic stealth technologies employed in the $1 
trillion F-35 program. In addition, Chinese technology 
corporations like Alibaba and Baidu are investing heavily in 
quantum computing.
    Do we run a risk of falling behind the curve with China and 
also the threat of our nation being at risk?
    Dr. Siddiqi. Thank you, Senator Manchin, for the question.
    So the way I approach this particular subject is I would 
often have to remind my students how we, sort of, started 
working in this field. Looking at coherence times--this is a 
metric, for example, that tells how well your quantum computer 
is working. We have a team of four, right, on this particular 
topic and, in fact, other entities had teams of hundreds. In 
fact, we still have some of the most respectable times in the 
field.
    Senator Manchin. Are you concerned just strictly about 
China superseding us and leading in this technology?
    Dr. Siddiqi. Right. So I think my statement is that our 
ability to, sort of, be agile and maneuver will always keep us 
ahead of anything and that particular spirit keeps it going. 
But we must worry, of course.
    Senator Manchin. Do you believe we are ahead right now?
    Dr. Siddiqi. I think it's difficult to say what is ahead 
and what's behind. We are all trying to figure out what's----
    Senator Manchin. We do not seem to be prioritizing it and 
China put $10 billion to prioritizing for armed forces.
    Dr. Siddiqi. I would very much say that we should 
prioritize this research for all of the reasons that have been 
mentioned, and with our capability to be creative we will, no 
doubt, be leaders in this as in many other fields.
    Senator Manchin. Dr. Guha, do you have----
    Dr. Guha. Yeah, I think we need to increase our sustained 
investment in this field. If you look at the way China is 
investing, China also invests in focused centers across the 
nation. I know the European Union, sort of, spreads it around, 
roughly. My own feeling is that our investments need to be 
focused around centers, and we really need to ramp up our 
investment in this area. The U.S. has the lead today. I think 
that's very clear. But in order to maintain it over the next 
five years or so, we really need to invest.
    Senator Manchin. Thank you.
    Thank you, Madam Chairman.
    The Chairman. Thank you.
    Senator Gardner.
    Senator Gardner. Thank you, Madam Chairman, and thanks to 
the witnesses for being here today.
    We have talked about the amount of money that the Federal 
Government is spending through laboratories and other research 
agencies on quantum programming, computing. Do we have any idea 
what the private sector is spending in this area of research as 
well?
    Mr. Dabbar.
    Mr. Dabbar. Senator, we have very good connections in terms 
of our research with the leaders in this sector. We have--it's 
not completely visible about exact dollars that they're 
spending against it. I think we have a very good view of which 
universities and which private sector entities and which 
specific technologies that they're approaching.
    I would agree with the comment that was just said, that the 
energy and the diversity both, across all three different 
areas--private, universities and national labs--is a winning 
bet.
    Senator Gardner. Do we have an idea of roughly what that 
is? Not the exact amount but, I mean, is it a billion? Is it 
billions? Is it hundreds of millions?
    Mr. Dabbar. I would say that it's definitely in the 
billions if you add up all those different areas. I'm not 
certain if it would add up to ten, but it's--if you add up 
everything, it's quite large.
    Senator Gardner. And we have talked a lot about the work 
that is being done at DOE, the work that is being done in the 
labs, the work that is being done through the DOE lab system, 
NIST, NSF, DoD. How are you coordinating those dollars, those 
research dollars, and is there an adequate flow of information 
between everybody who is touching this research?
    Mr. Dabbar. Yes, Senator.
    I would say that the fact that this chamber and the one 
next door's efforts have stepped up our efforts in terms of 
coordination. We regularly get together with NSF, DOD and NIST 
on this topic now. We follow your lead in terms of your 
interest and your focus and also with other defense-related 
agencies. And so, that's accelerating. And I think with the 
advent of this bill which actually, you know, has this to 
coordinate, I think that will continue to progress.
    Senator Gardner. Thank you.
    In terms of the partnerships with the private sector, you 
mentioned the work that is being done in the lab systems with 
the private sector. China's work, they are working with the 
private sector, so to speak, as well. Correct?
    Mr. Dabbar. Yes, Senator.
    Senator Gardner. Are they working with U.S. companies in 
China on quantum computing, quantum information issues?
    Mr. Dabbar. I'm not familiar. It wouldn't surprise me if 
they weren't, but not that I know of.
    Senator Gardner. Mr. Holmdahl, has China worked with 
Microsoft on quantum information science?
    Mr. Holmdahl. Yeah, so we, like--not in my group, in 
particular. My group is all outside of--it's in, again, it's in 
Santa Barbara. It's in Purdue. We have a team in Sydney, 
Redmond and two in Europe.
    I do believe that Microsoft has, I know they do, they're a 
big multinational company and they do have a research center in 
China. And my understanding is that they have looked at some 
quantum stuff, as would a big research center in India, but 
that was all public information.
    Senator Gardner. Dr. Guha, you talked about some of the 
national security implications of quantum. Can you talk a 
little bit more of concern about this area if we fall behind 
protecting the information? What would we do should somebody 
get ahead of us from a national security perspective?
    Dr. Guha. Yes, so this is an area where I think China has 
made a lot of progress. As you may know, they have demonstrated 
a quantum link from a satellite to ground over roughly, I 
believe, about 1,000 kilometers or so. I don't believe they 
broke any scientific barriers here, but it was an engineering 
tour de force. I think we have to give it to them. There are 
issues with this technology. Data rates are slow, et cetera, et 
cetera. But the fact that they were able to do this should 
alert us.
    And you know, the entities that are able to do this sort of 
secure communication, there's two things: one is a quantum 
link, to be able to send data that if somebody tampers you know 
about; and the other is decrypting data or decoding data that 
somebody else is trying to send. These are two ways that you 
can address the security issues. And if anybody has this 
superiority, it will be a landmark change in the way we 
transmit data. So we should take this very, very seriously.
    Senator Gardner. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Gardner.
    Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    Are all of you convinced that we have to support the 
development of quantum information science to stay competitive 
with countries like China? That we do not have a choice in this 
matter, we need to move forward? Are all of you convinced of 
that?
    Mr. Dabbar. Yes.
    Dr. Siddiqi. Yes.
    Senator Hirono. What about Russia's capability in this area 
because in the defense space China and Russia are our major 
competitors. Where is Russia in terms of their development of 
quantum science?
    Mr. Dabbar. Senator, thank you for the question.
    In general, if you look at the number of the enabling 
technologies associated with quantum, whether it's in RF, 
whether it's in cavities, whether it's in cryo, whether it's in 
algorithms--in general, they are much farther behind as a 
country in this particular technology.
    I can tell you that there are definitely researchers who 
are experts in physics individually in Russia and many of which 
end up coming to the United States. But in terms of a national 
footprint, the Russians have a much smaller footprint than 
many, many countries in the world.
    Senator Hirono. Okay, thank you, including of course, the 
countries of the EU.
    We care a lot about internet security, and this is for Dr. 
Guha. How would a quantum computation-based internet enhance 
the security of information we send on the internet, and when 
do you expect a nationally-deployed quantum internet could be 
available to the public?
    Dr. Guha. So if you had a quantum secured internet, 
there's--you would be guaranteed secure communication in the 
sense that if you sent some data and somebody was eavesdropping 
on it, you would know. And so that would make it failsafe.
    As to when there will be a quantum internet, it's difficult 
to say. I would prefer not to look into the crystal ball and 
give a number.
    But I think, I mean there are companies already who are 
close to having products over, say, a few hundred-kilometer 
lengths. Those might be expensive. They might be only for very 
specific purposes. So it's certainly not going to be of broad 
usage. But that type of technology, we're only a few years away 
from seeing this across the world, but specific instances of 
few hundred-kilometer lengths.
    Senator Hirono. It sounds as though quantum computer 
systems, computer science, can be a huge benefit in terms of 
security of a lot of our systems as we deal, especially as I 
sit on the Armed Services Committee and on this Committee, 
infrastructure--they are all vulnerable. Our space 
infrastructure, all of these are very vulnerable to 
cyberattacks. Would you say that quantum science could play a 
big role in ensuring the safety of these systems? Yes?
    Dr. Siddiqi. Thank you, Senator Hirono.
    Yes, very much so, because I think as my colleague, Dr. 
Guha, was mentioning, that in quantum mechanics if you make a 
measurement, you know that that's happened. So that fundamental 
principle is different than classical physics.
    That applies in many, many things, right? For example, if 
someone copies your credit card number you will not know until 
they use it, right? But that's not the case in quantum 
mechanics. So having that fundamental change of how information 
and measurement works together, that applies not only to 
communication but also to storage and so on and so forth. So 
there is very much a need there.
    And I wanted to maybe make a brief comment about the 
previous question that you'd asked about Russian involvement 
and other entities. I have many colleagues from all around the 
world, be it Russia or China or Japan and so on and so forth, 
and I think to summarize the last few questions that were 
coming out, you know, how much have we invested, how far are we 
ahead? I think all large nations have made some investment of 
some quantity, right? And they've, sort of, all come up to the 
same level saying that we realize that quantum can do 
something. It's very powerful. The question is, who is going to 
then invest in the next huge lift after that to bring it to 
market? And some have started to invest in this and they have 
been named so far. So I think having funds is not necessarily 
the most needed thing for success, but if you don't have an 
investment then I can guarantee you will not have it, right?
    So I think it's very critical for us to make that 
investment and move forward and, in fact, not worry so much 
necessarily about what's happening, just make sure that we can 
do the best job that we can because we really do have the 
resources and the workforce to do it. But that does require an 
investment.
    Thank you.
    Senator Hirono. I hope the Chair will allow me to go over a 
little bit.
    So another question for you, Dr. Siddiqi. Your testimony 
mentioned the potential application of quantum simulations to 
solar energy technologies and Hawaii is really at the forefront 
in the use of solar energy. Could you elaborate on how quantum 
computers could help develop new solar technologies and how far 
in the future such developments could take?
    Also, I was so intrigued by two of you mentioning that we 
can use quantum computing to make fertilizer and how far in the 
future would that be because, of course, making fertilizer 
using less energy would have major impacts on food production 
across the world.
    Dr. Siddiqi. Absolutely. Let me briefly comment on the 
science behind both of those.
    So, for example, plants take in light and turn out energy 
at the end of the day in photosynthesis. And solar cells are 
not so different, right? Light comes in, it excites something 
whether it's electronic or vibronic, some kind of motion in a 
particular solar cell that converts into energy. The thought is 
this conversion of photonic or light energy into electrical 
energy can then be enhanced by having some sort of quantum 
coherence. The first step in this is to run a simulation to see 
how that energy transfer happens, right? And that's, sort of, 
the current state of simulations in this field. If we are able 
to figure out the optimal recipe for taking light and turning 
it into electricity, then one could imagine this type of 
application. And so, that comes under the title of artificial 
light harvesting, right? We'd like to harvest light, not 
exactly as plants do but in, perhaps, some inspired way for 
doing this.
    The issue with fertilizer production, of course, we're 
referring to the Haber process developed by Fritz Haber, where 
one brings together nitrogen and hydrogen at 400 degrees 
Centigrade and 200 atmospheres pressure and this does consume, 
like the numbers we heard, quite a significant part of the 
world's energy budget. As a gardener I know the legumes 
underground do this at ambient temperature, but they do this, 
in fact, using an iron-molybdenum catalyst, right? And to 
understand the structure, the chemical structure and dynamics 
of this catalyst is really beyond anything classical computing 
technologies can do at the moment. So the picture at hand is if 
we are able to simulate now these chemical processes, we would 
be able to understand something about catalysis.
    So in our own work we've done hydrogen, others have done a 
few more atoms. There's a few more atoms to go to get up to 
iron but, you know, we're working on it.
    Senator Hirono. So how far in the future do you think 
before we can create fertilizer in the method that you 
described?
    Dr. Siddiqi. I would say near-term quantum devices have 
tremendous potential in the next 5 to 10 years, or a few years 
to 10 years, because one other thing which is very interesting 
about this is what if the answer from your computation is fuzzy 
but still useful?
    For example, we're not able to figure out the exact 
structure, but nonetheless we can guide chemists to say, you 
know, this is the phase space you should look in, this is the 
combinatorial space you could look in. That's already extremely 
valuable. We wouldn't be looking for a needle in a haystack. We 
could, sort of, narrow down, well, the haystack is over here, 
right? And one could have, you know, a classical effort to find 
it. That's another level of technology that may come out of 
this.
    Senator Hirono. Thank you.
    Thank you, Madam Chair.
    The Chairman. Senator Daines.
    Senator Daines. Chair Murkowski, thank you. I have not had 
this kind of conversation since my chemical engineering days.
    [Laughter.]
    This is great.
    Thank you for holding this hearing today, Chair Murkowski. 
It is probably not customary for this Committee to dive into 
something as technical as quantum computing or that we have 
Microsoft testify here in front of us, but for me, this is a 
fascinating and very important topic.
    I spent 28 years with my chemical engineering degree in the 
private sector before coming to Congress, but 12 of those years 
were in the cloud computing business. We helped build a company 
that was a little startup that grew to about 1,100 employees, 
at cap was about $1.8 billion. We took the company public and 
it was acquired by Oracle.
    So I have had a chance to see a startup from the early 
stages, before the cloud was even called the cloud then, and 
grew it to a large company that had, at present, 17 offices of 
33 languages, offices around the world.
    I have also seen the challenges of what it takes to build a 
business like that, how hard it is to build a technology 
company, the issues of innovation, of hiring, of expansion. And 
I believe that quantum computing faces many of the same hurdles 
that we faced a decade before regarding investment and a 
trained workforce.
    I do believe we are making good strides. And by the way, 
Montana--this company I told you about was headquartered in 
Bozeman, Montana, with offices in London and Tokyo; Sydney, 
Australia; Chicago; Dallas; Washington, DC. And we have some 
Montana companies actually leading the way.
    My alma mater, Montana State University, proud of--many of 
the leading quantum and photonic companies are growing right 
there in Bozeman, Montana, and around our state.
    But I do fear--one of the things that keeps me awake at 
night, is we are falling behind China. I spent six years 
working in China with Proctor & Gamble. I was in Guangzhou back 
in the '90s and leading the startup there for P&G. So I keep a 
close eye on what is going on competitively. This is a race 
that I don't think we can lose. It would not only have 
implications on our economy and academia, it could have serious 
implications for national security.
    Mr. Holmdahl, Microsoft is one of the top companies 
investing and working in quantum computing. As an international 
company, you also have a unique view of the global quantum 
race. I have heard from experts in the field, on the ground in 
China, on the ground in Hong Kong and other places, on the 
ground in Menlo Park, that we are losing this race to China. 
Where do you see the U.S. in the quantum race?
    Mr. Holmdahl. Senator Daines, it's a great question. I 
think there are a couple of ways to look at it. I think that if 
you look at the commercial sector, the big U.S. companies are 
doing good work. Microsoft, Intel, Google, IBM are all doing 
good work. We have--you're starting to see the startup 
community get into the quantum race as well. Rigetti is being 
funded by Andreesen Horowitz.
    That said, I do worry, again, and I said in my opening 
statement that the quantum workforce is going to be--and you 
hit the nail on the head, we have to build a complete end-to-
end system, you know, all the way from the qubits that are down 
for us at the bottom of the refrigerator to the cryogenics 
controlling it, to the software to control all that, to the 
applications and the algorithms. And that is where I really 
worry that our workforce today is not necessarily, is not 
skilled in order to be able to jump into this quantum economy. 
We do need to do more work at the university level, on-the-job 
training, more partnerships. There are other countries out 
there that are investing in it. I don't know about China 
specifically, but I do know that for us to be successful we 
need to continue to invest in the workforce and continue to 
invest in research and then continue to look at other 
partnerships.
    Senator Daines. On this workforce question, look at the 
graduation numbers of STEM grads coming out of U.S. 
universities versus STEM grads coming out of Chinese 
universities. I think the number, it is a seven to eight time 
factor. The scale that is being built in terms of innovation 
ecosystem in China is remarkable.
    So follow, what do you see as the national security 
implications, and I think Senator Gardner touched on this a 
little bit as well earlier, of China taking the lead in the 
quantum information space?
    Mr. Holmdahl. Well, you'd be happy to know both my kids 
graduated with machine learning degrees so I'm trying to 
contribute to that.
    Indeed, yeah, there are obvious security issues with 
somebody, any country, getting the ability to decrypt, 
essentially, our encryption algorithms. You know, RSA-2048 
has--it's no secret that people with a big enough quantum 
computer can crack that. I would think it would be in our best 
interest to make sure that we have the ability to do that 
before others and that we also, and like Microsoft and others 
are working on, develop post-quantum crypto algorithms so that 
when quantum computers are out there we're no longer using the 
encryption methods that we have today.
    Senator Daines. Thank you. I am out of time.
    We touched on there that the commercial side, certainly 
long-term competitiveness for our nation, but also the national 
security implications of breaking encryptions and so forth and 
where this all goes and the importance of this topic. I want to 
thank you, Chair Murkowski, for bringing this to light in this 
Committee and for the experts here to help us articulate what 
the challenges are going forward.
    Thanks.
    The Chairman. Thank you, Senator Daines.
    Senator Heinrich.
    Senator Heinrich. I want to take a step back and maybe give 
folks a little bit of a window into why some of these 
principles exist that we are talking about and what is so 
unique about quantum with regard to observation and 
applications like secure communications.
    Dr. Siddiqi, could you talk a little bit about just what is 
quantum entanglement and what does that mean for those 
applications?
    Dr. Siddiqi. Sure. Thank you, Senator Heinrich, for the 
question of what is quantum entanglement which, in reality, is 
the resource that makes quantum systems unique and powerful.
    If I'm allowed to use my pencil I will use this as an 
illustrative tool, right? So there's a property called spin, 
for example, right? So an electron which has charge can also 
have spin which we know points up or down. But the debate that 
Einstein and Bohr had is how does a spin know which way to 
point until you measure it, right? It's only when you measure 
along this axis will it be up or down because up or down 
doesn't have meaning until you define what's up and what's 
down. The idea then is that the spin, in fact, can be in any 
state. This is the same principle as the cat. It could be 
asleep or awake. It can be in any state until you define that 
axis.
    Now let's imagine I have two pencils. We'll assume this is 
a pencil. If I have two pencils or more, then the number of 
combinatorial states that they can be in grows exponentially, 
right? So that's entanglement.
    The idea that I can't write this as just one object, 
individual objects and, in fact, it's one combined object is 
entanglement. And that's what adds the power to computation or 
communication, et cetera. But then, of course, the critical 
part is you have to have the right algorithm to take advantage 
of this.
    Senator Heinrich. But you can also separate those two 
particles over vast distances and still what you observe in one 
applies to the other.
    Dr. Siddiqi. Correct.
    Senator Heinrich. Which is----
    Dr. Siddiqi. Correct. This is what is known as----
    Senator Heinrich. ----what makes this so powerful.
    Dr. Siddiqi. Absolutely. This is the question of Einstein, 
Podolsky and Rosen, right? The idea that you can separate out 
these two and quantum mechanics would exist all over the 
universe and all tests show that it does.
    Senator Heinrich. So that has obvious applications in 
things like communications.
    I am going to resist the urge to ask you about the 
potential for entanglement of your cats and move on to an 
engineering question for Dr. Holmdahl.
    What should we be doing now in our engineering schools to 
prepare the workforce that is actually going to take all of 
this basic research in physics and begin to apply it to the 
applications that we will really need to make this a utility in 
the future?
    Mr. Holmdahl. Yeah, that's a great question, Senator.
    I think there are like three main areas, at least three 
main areas, that we need to work on.
    One is just in basic quantum physics and the materials 
associated with that. I don't think we have the answers to how 
these qubits are going to look, and we need to make sure that 
we have that workforce that can not only figure out what the 
right materials are and the right designs are, but how to 
manufacture and fabricate those. It's--we used to say in the 
engineering world, it's kind of easy to build one of something, 
but trying to build a million is much harder. And so, you have 
to have a manufacturing and design at the same time.
    The second part is that the engineering of these, in most 
cases, is done at cryogenic levels----
    Senator Heinrich. Right.
    Mr. Holmdahl. ----you know, 4K and below and we need, like, 
we're trying to hire many cryogenic engineers and they're just 
not out there today. And so, more work and that might probably 
be in the mechanical engineering side of the things. If the 
universities could up the level of cryogenic engineers they 
have that would be a big help.
    The third bucket is in programming the quantum computer, 
the paradigm is a completely different paradigm than a 
classical computer and the algorithms are different. We need to 
develop that next level of programmers, quantum programmers, in 
order to be able to solve some of these tough problems.
    Senator Heinrich. Why do you think there has not been more 
interest in land grant universities in jumping out to start, 
you know, filling the pipeline for these sorts of educations?
    Mr. Holmdahl. You know, I don't personally know. I think 
this is the most amazing topic. I came to it later in my life, 
like the last two or three years, but it's incredibly 
inspiring.
    I think being in the QIS meetings yesterday, it sounds like 
universities are starting to really grasp the power and 
excitement around this. I'm hopeful in the next few years 
you're going to see more and more of it.
    Senator Heinrich. Great.
    Thank you, Madam Chair.
    The Chairman. Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Madam Chair, and thank you 
for this hearing today.
    Gentlemen, thank you so much, very enlightening testimony.
    Let me start with Under Secretary Dabbar. I am reviewing 
the National Strategic Overview for Quantum Information 
Science. Let me ask you this--the NSTC Subcommittee on Quantum 
Information Science--are you comfortable that that subcommittee 
members contain all of the federal partners that are necessary 
to address this issue and work with private sector, academia 
and the national labs on this issue, on QIS?
    Mr. Dabbar. Yeah. Yes, Senator, I am.
    It has been a very inclusive process that OSTP ran and it 
includes all the--from the basic sciences to the applied 
applications across the federal agencies.
    Senator Cortez Masto. Is there anything that you are 
hearing today from the private sector and the national labs 
that you think needs to be addressed, or taken back to this 
subcommittee, in addition to the recommendations that they have 
made or more information that they should be aware of?
    Mr. Dabbar. So the short answer is yes. And between today 
and the meetings that we had yesterday at the White House and 
earlier before that this last week, is that we've been 
soliciting input across the whole spectrum of private and 
public, and there's a number of key takeaways.
    It's around infrastructure that, obviously, this Committee 
has a lot about building out infrastructure at our national 
labs. It's about connections, and I think that came up here 
earlier today, that the Chairman asked about earlier. And it's 
also about how do we help private sector transition? So all 
these conversations here in the near-term have also been very 
helpful input for us.
    Senator Cortez Masto. Thank you.
    And then, let me just say, I echo all of the questions that 
have been asked. I mean, this has been a great conversation 
today.
    Let me ask you three gentlemen: What should we be doing at 
the federal level? What should we be prepared to address for 
the future that was not talked about so far when it comes to 
the use of QIS? I will start with Dr. Siddiqi.
    Dr. Siddiqi. Thank you, Senator Cortez Masto, for the 
question.
    What I want to talk about is something very mechanical in 
terms of how we fund programs, how we evaluate programs. So on 
the surface, of course, we have many great programs for 
graduate fellowships, for industry engagement with the SBIR 
program and all things that normally would look like they are, 
sort of, building the linkages that we need but, in fact, 
dedicating some subset of them and removing the bureaucratic 
difficulties of getting those through and dedicating them for a 
quantum initiative would be tremendously beneficial, right? 
Because in my mind, a center that has the ability to give out 
those fellowships to, sort of, build those linkages with 
industry rather than saying that we will be one of the 12 
topics that compete for very precious dollars would be a 
tremendous investment and a tremendous step forward. So any 
mechanical methods which, in fact, streamline this process of 
bringing together these three entities, both in communication 
and funding, would be tremendously appreciated.
    Senator Cortez Masto. Thank you.
    Mr. Holmdahl.
    Mr. Holmdahl. Yeah, one thing that I would point out. I'm a 
big believer in doing these grand challenges and grand 
strategies and there's--certainly, you want to have a lot of 
individual research going on but I would like to see us do our 
moonshot, whether it be quantum computing or the quantum 
network, and try to rally all the resources that the country 
has in commercial and in universities and academics and put 
that together because these are multi-disciplinary systems that 
require people from physics, from computer science, from 
mechanical engineering, from electrical engineering, from 
business, all to come together, and it's going to take a lot of 
people to do one of these big things. And when you go through 
that process you learn an incredible amount, and everybody has 
this vision and this goal in their mind and they know what 
they're doing and why they're targeting it.
    Senator Cortez Masto. Thank you.
    Dr. Guha.
    Dr. Guha. Thank you, Senator.
    So, very quickly, I think I would ask that you view this as 
an area that is a priority for investment, that it is really 
time we invested in this. And I would also request 
consideration of focused centers of excellence instead of 
spreading things around and diluting it.
    And then there is the workforce part. There are areas of 
the workforce that need to get on this field, you know, 
traditional engineering areas, et cetera. So that investment 
should also be done astutely.
    Senator Cortez Masto. Thank you.
    Gentlemen, thank you.
    Thank you so much, Madam Chair, for the conversation today.
    The Chairman. Thank you.
    Senator King.
    Senator King. Thank you, Madam Chair.
    I apologize for being late. The schedule around here needs 
a quantum system----
    [Laughter.]
    ----in order to figure out how we can be in two places at 
once. If you could work on that.
    This may be an obvious question, but give us the strategic 
implications of this. How will this change the world? What are 
we talking about?
    Doctor.
    Dr. Siddiqi. It's a great question, Senator King.
    And you know, physicists, we look at the 50-year time 
scale. Where will we be when we think about these technologies?
    I think it will radically change, first of all, in the 
grandest scale, the way we think about the world and what our 
theories, in fact, tell us about what the physical world is 
like, at the grandest levels. Because, in fact, it's these 
machines that may tell us what entanglement is in the universe. 
What's the fabric of the universe? What are black holes? What 
are theories of this type of grandeur, and how does one think 
about that?
    So that has deep implications for everything in terms of 
theoretical aspects of physics that enter in material science 
and----
    Senator King. It worries me that you are headed for Douglas 
Adams' most elaborate and scary torture machine ever devised, 
the total perspective vortex.
    Dr. Siddiqi. That's right.
    Senator King. Which looks like a phone booth and when you 
step in it shows you your true place in the universe.
    [Laughter.]
    Dr. Siddiqi. That's right.
    We will like to--I will defer to my colleague from 
Microsoft for building.
    [Laughter.]
    But indeed, that's sort of a very grand vision, right?
    But in terms of----
    Senator King. Give me specifics. How will it change life?
    Dr. Siddiqi. Yeah.
    So for specifics, it will change the way we synthesize 
materials, right? I am also a chemist-in-hiding, a little bit, 
I have a chemistry degree. So quite often this is discovery-
driven rather than by rational synthesis. So that's a radical 
change in thinking about how we think about new materials and 
classes of materials and catalysts, and so on and so forth.
    In the computing domain, right, it's very different in 
terms of optimization from that we simply cannot access at the 
moment. In particular, for example, how does one think about 
logistics of very large operations in systems that have many 
moving parts. So that's a very applicable thing.
    Going again in terms of atomic systems, how do we think 
about technologies at the atomic scale, right, very different 
views of what sensors are like, right, what communication tools 
are like.
    It's really across-the-board thinking from the smallest 
scales of the atom, the photon, so on and so forth, all the way 
to the grandest scales which are what is the model of the 
universe. I view it really as a transformative technology.
    Senator King. Mr. Dabbar, are we in an arms race in terms 
of this technology? We are competing. As I understand it, both 
the Chinese and the Russians are making significant investments 
as is the EU. What are the implications of not getting there 
first?
    Mr. Dabbar. So I would split it up between economic and 
security, that particular question.
    From an economic point of view, you could characterize it 
as how important is the computing and the semiconductor 
industry is to this country and everything that applies to our 
phones, to our computers, how we communicate, how we make 
inventions, is vast. And so, this could be a major jump in 
that.
    In sensing--I gave a comment earlier about life sciences. 
The impact of quantum sensing potential to health in this 
country to replacements for MRI machines at levels that would--
you talk to any doctor about those implications and they hear 
about it and they look at what impact they could have on 
various aspects of life sciences, is actually hard to bound.
    So there's a lot of basic science, a lot of economic value 
that we've already seen----
    Senator King. Decrypting is one of the possibilities. Is 
that not the case?
    Mr. Dabbar. Yes, Senator.
    So on defense I would hit on two, there's many examples but 
let me hit on two.
    The first one is, obviously, for crypto. Right now, 
obviously, many things in the world, including on the defense 
side, are coded and there's been some work done by professors, 
one in particular, about the ability to use high qubit machines 
to be able to break current codes at the most highest level, 
which has broad implications. And so, for us to be able to do 
that--and by the way, that's not just a defense topic, it's 
every single credit card payment, everything in the financial 
system, you know, that's currently encrypted has implications.
    And then there's another one that's also very important, 
which is clocks. And right now, we use atomic clocks to code to 
do very specific timing for both security and for financial 
reasons. And there's risks around, we were talking about 
earlier, around space and satellites and so on, around how 
that's currently done today, in terms of clocks. And, 
obviously, if we have the capability of that, it certainly 
provides for greater security around that topic.
    Senator King. Where do we stand in the international 
competition?
    Mr. Dabbar. Senator, so the way I would characterize it is 
I will always bet on America and, meaning that I think the 
diversity that you see here of private industry and 
universities and the federal complex is more dynamic and comes 
up with more ideas. We haven't had time to talk about all the 
different technologies that are being developed across many of 
the different areas, but it is a very dynamic space.
    But I worry that we need to put more resources against that 
to leverage all this different input that we have. There's one 
certain country that likes to put a tremendous amount of money 
into a particular topic. That's a command and control 
dictatorship way of trying to invest. And many times they bet, 
whenever you have command and control, it looks like a lot of 
money. We should be worried for the reasons both economically 
and defense. We should be focused on it.
    But I think, with the focus of this body and the nation 
across all the different areas, I have a high degree of 
confidence for this country.
    Senator King. Madam Chairman, I am out of time but could I 
ask one question that follows up on that?
    The Chairman. You may. You missed my long series of 
questions.
    Senator King. Okay, thank you.
    The Chairman. Go ahead.
    Senator King. So the question is how do we organize? And 
this would go to any or all of you. How do we organize our 
approach to this problem? Is it a Manhattan Project--a focused 
government-led project with private sector and all those 
people--or is it a diverse, Caltech does something, MIT does 
something, Microsoft does something and, hopefully, we get 
there?
    Dr. Siddiqi. So being at Berkeley with the Manhattan 
Project idea, I'd like to comment that, I think, we need a 
balance of both, right? Certainly, we need vertical integration 
that brings all the elements that we've been talking about, the 
computer scientists, the physicists, into one room so we can 
really fill in those technology gaps and build the products 
that we're looking for.
    At the same time, there are very deep and difficult 
theoretical questions that we could all benefit from. So there 
may be a tiling of the phase space with some horizontal 
integration as well.
    Senator King. But I would think that would be something you 
all could help us with is to suggest how this should be 
organized, because that is a function that the Federal 
Government can supply as the organizational principle here.
    Yes?
    Dr. Guha. So, if you look, you know, 30, 40 years back, a 
lot of the technologies that we use today like 
telecommunications, silicon, microelectronics, a lot of the 
basic early work was done by companies such as Bell Labs and 
IBM. Those business models don't exist today anymore. And 
research is also much more expensive today for industrial R&D 
to do it alone.
    My own feeling is that something like this, with this sort 
of national importance and wide breadth, needs to be centered 
around the national labs working very closely with academia and 
industry. So there has to be learning on both sides over here.
    But I do feel that the national labs have the 
infrastructure and the, you know, just the breadth and the size 
of equipment and the capabilities and the outreach to academia 
and industry that this, you know, these are the places where we 
should be doing the research of the future.
    Senator King. Okay, thank you.
    Thank you, Madam Chair.
    The Chairman. Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    And thanks so much to the witnesses for being here and your 
testimony. We have tried to follow it from afar here as we've 
been doing other things. I so appreciate, particularly, the 
focus on workforce which I do want to ask about.
    Madam Chair, again, thank you for having this hearing, it 
is such an important topic. I think DOE is more in the 
forefront of what we need to do to better skill our 
competitiveness as a nation, secure us on cybersecurity and do 
so many things. I think today is another example that, really, 
this Committee can do a lot in bringing attention to those 
investments and strategies.
    I also want to thank my colleague, Senator Duckworth, for 
filling in earlier for me and, I guess, you and she both did 
ask questions about workforce. But I will get back to that in a 
second.
    Mr. Holmdahl, thank you so much for being here and for your 
leadership. I wondered if you could talk a little bit about the 
relationship between Microsoft and the Pacific Northwest 
National Lab and what you are doing in collaboration? Dr. 
Siddiqi mentioned chemistry, I don't know if that's the main 
focus, but if you could elaborate on that, it would be so 
helpful.
    Mr. Holmdahl. Yeah, sure, Senator Cantwell.
    One of the things about quantum computing is the algorithms 
are very different from the algorithms that you find in 
classical computing. And so, we already have a team of people 
that are going out and talking to people in the government 
space as well as the enterprise space, like, you know, figuring 
out what their tough problems are and how might quantum 
algorithms solve those problems. So one of the things that we 
think that a quantum computer can solve are quantum chemistry 
problems. It, kind of, fits right into the wheelhouse of the 
quantum program.
    So we've been working with the Pacific Northwest National 
Laboratory for over probably a year now. They have, you know, 
some of the best chemists in the world. I think there are 4,500 
people that work there.
    We have been exploring, like, what are their tough problems 
that they're trying to solve? How might a quantum computer 
solve those problems? We've continued to engage in those 
discussions. They're very fruitful discussions.
    I think the thing that really helps, too, is as we design 
our quantum computer and we know what problems they have, it 
informs how we design that computer going forward so that when 
we get this computer complete, it will solve real problems that 
people have. And I look at this as an example that industry and 
the government as well as universities can have coming together 
in trying to solve these with all three bodies working 
together.
    Senator Cantwell. It reminds me of, you know, in other 
areas of science where we're applying data and information, 
like on the human genome project and others.
    Dr. Siddiqi, since you represent a lab, did you want to 
weigh in here about what that relationship between labs can do 
for us?
    Dr. Siddiqi. Absolutely, thank you, Senator Cantwell, for 
the question.
    Perhaps the easiest way is to give an example of what we're 
doing in our domain. A small example of how, in my mind, real 
partnerships are built between national lab elements, academic 
elements and industry is really through our industrial 
incubator program, called Cyclotron Road, at Lawrence Berkeley 
Laboratory.
    So, in particular, we have a company that's willing to 
develop various technologies in the quantum domain, and we have 
partnered with them. And, in particular, their task at the 
near-term is to build the packaging, all the boxes and wires 
that go around the chip and we are very good at producing the 
chip. So we had a real discussion saying that, what are you 
comfortable sharing with us and what are we comfortable, you 
know, sharing with you? And it was a great discussion, right? 
So we've now handed over to them our chips and said, please go 
ahead and design what you think is the package, and we have 
some ground rules, right, about what to talk about, what not to 
talk about, so that they remain competitive and we also remain 
happy.
    So I think these partnerships can very much be nucleated. 
They start with, as Dr. Guha was saying, you know, the model of 
R&D has changed over the years. So I think it'd be very 
critical for us to identify what's the space of that basic 
research and we're, sort of, sharing what's the space that 
becomes competitive research, so on and so forth.
    And as an academic I think about the fact that, you know, 
we should be giving talks and different sessions and 
conferences, right? There are sessions that are really academic 
questions. There are sessions that are, sort of, basic science 
at the larger scale and, really, industrial sessions.
    So in my own field I'm actually an engineer that works on 
RF stuff by training. There's big conferences that have these 
things split up in three sections, right? There's the 
fundamental science section. There's the large-scale science 
and what have you. So I think that would be very healthy in the 
quantum domain so that we can all sit down and figure out how 
to tile the phase space in a very synergistic way.
    Senator Cantwell. But, no doubt, you welcome the 
partnership and you welcome DOE's role?
    Dr. Siddiqi. Absolutely.
    Senator Cantwell. So that brings up--listen, I have been 
involved with tech transfer a long time and it is always an 
interesting question about what actually gets done in tech 
transfer. Obviously we could have a whole hearing, probably a 
week, on tech transfer from our national laboratories if we 
wanted to but, for today, this notion of the workforce issue 
and on-the-job training. What do we need to do here to make 
sure--I just think about what we have been able to do at the 
Washington Technology Center as it related to the University of 
Washington and Boeing. That partnership let them focus on a lot 
of things and, in the end, they ended up focusing on composite 
manufacturing and solving some of the big problems that were 
going to be in the future of composite manufacturing. But when 
everybody is there working on the job, you know, I have met 
these young students years later and now they are the leaders 
within Boeing because they got the on-the-job training as the 
technology was just cutting-edge.
    I see everybody nodding. So what do we need to do to make 
sure that happens?
    Mr. Holmdahl.
    Mr. Holmdahl. Yeah, I think an interesting parallel might 
be the machine learning explosion that we've had in the last 
couple of years. You saw a lot of engineers that hadn't gone to 
school with machine learning backgrounds but, not only the 
companies themselves, but universities started doing a whole 
bunch of work in offering, like, either online classes or all-
day classes or 12-week classes in order to get the engineering 
populations up to speed on what's going on in machine learning 
and AI.
    If you look at today's workforce, the problems you need to 
solve in quantum are varied. Again, they go from manufacturing 
all the way to cryogenics to new computing algorithms.
    I do think that the fundamental engineers that we have in 
the force can be taught to do the work necessary for quantum, 
but it's like taking a mechanical engineer and making sure that 
they have the right training around cryogenics either from a 
university or from some training center or from a company that 
allows them to know more about cryogenics.
    Superconductivity is another big one that's important. You 
need, typically, superconducting circuits to control your 
quantum qubits. Engineers have the background, but they need 
that additional training. We put all of our engineers through 
like 10 weeks of training in order to get them up to the 
superconductivity speed.
    The other one that we're doing a lot around is these 
quantum algorithms that we talked about. We've put out a kit, a 
quantum development kit, that teaches you how to program a 
quantum computer. And we've also developed a bunch of katas 
which are like short learning exercises for developers. And you 
know, it's unbelievable how many developers are inspired by 
being part of the quantum revolution, and now they have an 
opportunity to learn very quickly with these little, simple 
katas on how to develop quantum algorithms.
    Senator Cantwell. Yes, Mr. Dabbar.
    Mr. Dabbar. Senator, so I would like to highlight something 
that's in the bill that's before you that I think is very 
interesting, and we certainly support the structure as proposed 
in the bill which is around the quantum centers and allowing 
who can be allowed to bid for the particular centers. The bill 
specifically says that as a centers as we, assuming it gets 
passed by this body, that the three to five centers would, the 
people who could bid could be national labs, universities, 
private sector or consortiums thereof. And I certainly expect 
that as we potentially go out and do that, that there will be 
groups of that, that very much along the lines of your question 
regarding having some people probably part of a consortium from 
a private partner, from an industry, from a national lab and 
from a university and bringing people together and how they 
actually approach, to your Boeing example, how they approach a 
particular problem, how do they train people. And I think it's 
going to be very interesting as we get those groups together.
    And the one thing that I could say about this particular 
point in the bill which we support, is that the ripples, even 
though it's not passed, I can tell you that the number of 
national labs talking to private industry, talking to 
universities today, basically, trying to partner up to figure 
out that when this bill gets passed, what the centers are going 
to be, what the focal points of each are going to be which is a 
longer conversation, and then who is going to partner with who 
between the private sector, universities and national labs is 
already happening in this country. It's very exciting to be 
part of that conversation.
    Senator Cantwell. But you definitely believe that DOE 
should play a role in helping us get workforce training in this 
particular area?
    Mr. Dabbar. Yes, yes, Senator.
    A big part of what we do, so out of the 85--I'll give an 
example. We announced 85 different grants yesterday for $218 
million. Not only does the money go to a PI for a particular 
topic, they go hire a bunch of, you know, juniors at their 
particular lab or their university who are still studying. And 
so, there's an effect as we go through it and it's very much 
part of our thought process when we go fund particular areas, 
including this one yesterday.
    Senator Cantwell. Well, I just happened to run into a bunch 
of Sea Grant fellows, Madam Chair, on the way here. I don't 
know where we would be in the United States Congress on 
maritime and fishing policy if we did not have Sea Grant 
fellows.
    I am just a big believer in an information age that we do 
everything we can, particularly on cutting-edge technology and 
transformative areas, of also bringing the workforce along with 
us. I think we definitely need to do that in cyber. I 
definitely think we need to do it here. DOE can play that role. 
I hope they will.
    I hope we will think about how we, as I said, having 
witnessed this from the university and tech transfer 
perspective to now see them, you know, working in the field, 
particularly a lot of young women, who have gone into composite 
manufacturing. It has been very heartening to see that we 
established those environments in which they could learn and 
earn and get educated on cutting-edge technology at the same 
time.
    So thank you.
    Thank you, Madam Chair.
    The Chairman. Senator Cortez Masto, the two of us have had 
10 minutes. Would you care to ask anything final?
    Senator Cortez Masto. The only one I would have a follow-up 
with is Under Secretary Dabbar.
    I noticed you were going to have a comment to Senator 
King's question about what the structure should look like. Were 
you able to answer that with the last question?
    Mr. Dabbar. Yes, Senator.
    Senator Cortez Masto. Okay.
    Mr. Dabbar. I think the comment I just gave about the 
structure of the centers addressed, I think, similar to his 
question.
    Senator Cortez Masto. Thank you.
    The Chairman. Thank you, Senator.
    Gentlemen, thank you for your comments this morning. It has 
been encouraging. It has been exciting.
    As we think about how we grow a workforce, there are things 
that we can do at the federal level. There are incentives that 
we can put in place, but I guess my experience is that young 
people are really smart and they are going to go where they 
think that there is a level of opportunity, that it is 
exciting, that it is cutting-edge, that they are making things 
happen. And so, if we send the right signals that we are 
leading in this, that we are where you want to be, I do think 
that just generates that level of enthusiasm and we are able to 
do more when it comes to developing that good strong workforce 
and then keeping them here with those opportunities. It is the 
keeping them here part that, I think, when somebody mentioned 
``are we in an arms race here'' in terms of who is going first. 
It is important, the investment that is being made. But again, 
I think as long as young people believe that there is greatest 
opportunity here to be pushing out in these areas, I think this 
is how we stay ahead.
    I appreciate all that you have contributed to this 
conversation. I admit that I have learned a great deal more in 
the two hours that we have been sitting here. It has been great 
from my personal advantage, and I thank you for that, but thank 
you for sharing with the Committee.
    I think, between what we have been doing here and then the 
hearing that we had a few weeks back on block chain and crypto 
currency, we are doing fun, forward-thinking things here. So 
watch the Energy Committee.
    Thanks so much and we stand adjourned.
    [Whereupon, at 11:59 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  [all]
                     

</pre></body></html>
